:>
*

In The

Supreme (Eimrt of tl|e Mnttefr States
Supreme Court, US-----1
FILED

October Term, 2020

DEC 3 0 2020
OFFICE OF THE n

Raheem Jefferson Brennerman,
Petitioner,
v.
United States of America,
Respondent,

On Petition for a Writ of Certiorari
To the United States Court of Appeals
for the Second Circuit
PETITION FOR A WRIT OF CERTIORARI

Raheem J. Brennerman
FCI Allenwood Low
P. 0. Box 1000
White Deer, Pa. 17887-1000
Pro Se Petitioner

I.
1.

QUESTIONS PRESENTED

Whether the abuse of discretion standard imposed by the United

States Court of Appeals for the Second Circuit is Constitutionally
impermissible - where trial Court which had an obligation to protect the
Constitutional rights of a criminal defendant deliberately deprived him of his
Constitutional rights and the United States Court of Appeals for the Second
Circuit refused to correct the errors of trial Court.
2.

Whether trial Court abused its obligation to protect the

Constitutional rights of a criminal defendant at trial - where trial Court
deliberately caused the deprivation of a criminal defendant's Constitutional
right in an endeavor to unjustly deprive him of liberty.
PARTIES TO THE PROCEEDING
All parties appear in the caption of the case on the cover page

I

*

II.

Table of Contents

I.

Question Presented

1

II.

Table of Contents

n

III.

Table of Authorities

IV.

Petition for Writ Of Certiorari

1

V.

Opinions Below

1

VI.

Jurisdiction

2

VII.

Constitutional and Statutory Provisions Involved

3

IV

VIII. Statement of the Case

4

Background

EX.

6

The Criminal Referral, The Petition and Ex Parte
Conference Between Judge Kaplan and the Government

10

The Indictment and Order to Show Cause

13

The District Courts Decision

14

The Trlal and Post-Trial Proceedings

14

The Court of Appeal Decision

16

REASONS FOR GRANTING CERTIORARI

18

I.
The Second Circuit erred in affirming the
District Court's 1) Admission of the civil contempt
ORDER AGAINST PETITIONER; 2) FAILURE TO COMPEL
PRODUCTION OF CERTAIN EXCULPATORY MATERIALS; AND
3) PRECLUSION OF THE ADMISSION OF EVIDENCE PERTAINING
TO SETTLEMENT NEGOTIATIONS, BECAUSE THE ISSUES RAISED
ARE QUESTION OF EXCEPTIONAL IMPORTANCE. THIS CASE
RAISE ISSUES OF IMPORTANT SYSTEMIC CONSEQUENCES FOR
THE DEVELOPMENT OF THE LAW AND ADMINISTRATION OF

Justice.........................................................................................

ii

18

A.

Admission of the civil contempt order
violated Petitioner's Constitutional rights

WHERE THE COURT FAILED TO AFFORD HIM THE
EQUAL PROTECTION GUARANTEE AND THE PROSECUTION
VIOLATED HIS RIGHT TO DUE PROCESS OF LAW....................

B.

19

Failure to compel production of certain

EXCULPATORY MATERIALS VIOLATED PETITIONER'S

Sixth Amendment right, where he was deprived
OF THE EVIDENCE HE REQUIRED TO PRESENT A
COMPLETE DEFENSE..............................................................

C.

21

Preclusion of the admission of evidence

PERTAINING TO SETTLEMENT NEGOTIATIONS (DUE TO
FAILURE TO PERMIT FULL SETTLEMENT NEGOTIATION
EVIDENCE) VIOLATED PETITIONER'S CONSTITUTIONAL
RIGHT WHERE HE WAS DEPRIVED OF EVIDENCE HE REQUIRED
TO PRESENT A COMPLETE DEFENSE...............................................

23

X.

CONCLUSION

25

XI.

APPENDIX

26

iii

III.

Table of Authorities
Cases

Abdul-Akbar v. McKelvie,
239 F.3d 307 (3d Cir. 2001)

5

Brady v. Maryland,
373 U.S. 83 (1963)

22

Crane u. Kentucky,
476 U.S. 683 (1986)

5

Hester Indus., Inc. v. Tyson Foods, Inc.,
160 F.3d911 (2d Cir. 1998).........
ICBC (London) PLC v. The Blacksands Pacific Group, Inc.,
No. 15 Cv. 70 (LAK)............... .....................................
OSRecovery, Inc., v. One Groupe Int’l, Inc.,
462 F.3d 87 (2d Cir. 2006)................

20

6-9, 13, 19, 21
9, 19-21

Scrimo v. Lee,
935 F.3d 103 (2d Cir. 2019)

5

United States u. Bershchansky,
755 F.3d 102 (2d Cir. 2015)

4

United States v. Brennerman,
No. 17 Cr. 155 (LAK)....

9-16, 19,23

United States v. Brennerman,
No. 17 Cr. 337 (RJS) ...

13, 15, 20, 22

United States v. Brennerman,
No. 18 1033, 816 Fed. Appx. 583
(2d Cir. June 9, 2020) (Summary Order)

1-2, 16-17

Statutes
18 U.S.C. §401(3)

3

28 U.S.C. § 1254

2

iv

>4

IV. PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT
Petitioner Raheem Jefferson Brennerman respectfully petitions this
Court for a writ of certiorari to review the judgment and order of the United
States Court of Appeals for the Second Circuit entered on June 9, 2020. Mr.
Brennerman's motion for rehearing en banc was denied on September 9,
2020.

V.

OPINION BELOW

On June 9, 2020, a panel of the Second Circuit affirmed Petitioner's
conviction. United States v. Brennerman, No. 18 1033, 2020 WL 3053867 (2d
Cir. June 9, 2020) (Summary Order). Mr. Brennerman's motion for rehearing
en banc was denied by an Order of the Second Circuit dated September 9,
2020. See No. 18 1033 Cr„ EFC No. 318.

1

VI.

JURISDICTION

The Court of Appeals' judgment affirming Petitioner's conviction and
sentence was entered on June 9, 2020. See 18 1033, EFC No. 286. Mr.
Brennerman's motion for rehearing en banc was denied on September 9,
2020. See No. 18 1033, EFC No. 314; 318. Following a 150-day period for
filing, including the ordinary 90-day filing period plus the 60-day additional
time provided by administrative order relating to the COVID-19 pandemic,
this Petition for Certiorari would have expired on February 9, 2021. The
petition is being filed postmark on or before that date. Sup. Ct. R. 13(1);
13(3); 13(5); 29(2); 30(1). Petitioner invokes this Court's jurisdiction under 28
U.S.C. § 1254(1).

2

- -?

VII. CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Title 18 U.S.C § 401(3) provides:
A court of the United States shall have power to punish by fine or
imprisonment, or both, at its discretion, such contempt of its authority,
and none other, as—
(3)
Disobedience or resistance to its lawful writ, process, order, rule,
decree, or command.
The Fifth Amendment provides:
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall any person be
subject for the same offense to be twice put in jeopardy of life or limbo,
nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use,
without just compensation.
The Sixth Amendment provides:
In all criminal prosecutions, the accused shall enjoy the right to a
*
speedy and public trial, by an impartial jury of the state and district
wherein the crime shall have been committed, which district shall have
been previously ascertained by law, and to be informed of the nature
and cause of the accusation, to be confronted with the witnesses
against him, to have compulsory process for obtaining witnesses in his
favor, and to have the assistance of counsel for his defense.

3

VIII. STATEMENT OF CASE
This case presents a matter of significant public interest in
highlighting the unusual instance where the Courts, that have an obligation
to protect the Constitutional rights of a criminal defendant, veers from the
permissible to the impermissible with the Courts deliberately violating the
Constitutional rights of Petitioner. The attack on Petitioner Raheem J.
Brennerman is an attack on the rule of law, civil rights and liberties affecting
everyone as well as the very fabric of United States’ democracy. The United
States Court of Appeals for the Second Circuit has a Constitutional obligation
to review de novo meaning for clear error. See United States v. Bershchansky,755 F.3d 102, 108 (2d Cir. 2015) (internal citation and quotation marks

K-l

omitted) The Circuit Court exacerbated the Constitutional deprivation
already suffered by Petitioner by imposing a Constitutionally impermissible'^
abuse of discretion standard with its review.

Ai-

Petitioner seeks review of this case for clarification on the obligations
of the Courts - United States Court of Appeals for the Second Circuit and the
United States District Court for the Southern District of New York
particularly where a criminal defendant's right has been so abridged and
abrogated because of his race resulting in a fundamental miscarriage of
justice.

4

The Fifth Amendment of the United States Constitution states, "No
person shall be deprived . . .of life, liberty or property without the due process
of law." The due process right is enshrined in the bedrock of our democracy by
imposing the equal protection of law doctrine. Abdul-Akbar v. McKelvie, 239
F.3d 307, 316-17 (3d Cir. 2001) (en banc) (Although the Fifth Amendment
contains no Equal Protection Clause . . .[t]he [Supreme] Court has construed
the Fifth Amendment to contain an Equal Protection Guarantee [;] . . .Fifth
Amendment Equal Protection claims are examined under the same principle
that apply to such claims under the Fourteenth Amendment) (internal
citations omitted).
The Court had previously promulgated that a criminal defendant has a
Sixth Amendment right to present a complete defense. See Crane v. Ky., 476
U.S. 683 (1986) (holding that "It is a federal law that a criminal defendant <'
has a Constitutional right to present a complete defense). The United States'
Court of Appeals for the Second Circuit recently adopted such holding in
Scrimo while creating disparity with Petitioner. Scrimo v. Lee, 935 F.3d 103
(2d Cir. 2019).
Review of this case is warranted as a matter of public interest to
emphasize conformity and uniformity with the law and Constitution among
lower Courts in ensuring adherence with their Constitutional obligations and
to avoid attack on the civil rights and liberties of criminal defendants because
of their race, sex or religion.

5

Background
The history of this matter began in 2014 when ICBC (London) PLC
sued The Blacksands Pacific Group, Inc ("Blacksands") in New York Supreme
Court primarily alleging, inter aha that Blacksands had failed to repay
approximately $4.4 million dollars extended to Blacksands pursuant to a
Bridge Loan Agreement. Significantly, Petitioner Raheem J. Brennerman,
the CEO of Blacksands, was not named as a defendant in that action. (Notice
of Removal; Cv. Cover Sheet, ICBC (London) PLC v. The Blacksands Pacific
Group, Inc., No. 15 Cv. 70 (LAK), EFC No. 1-2).
Blacksands removed the case to the Southern District of New York and*
■#

the matter was assigned to Hon. Lewis A. Kaplan, under the caption ICBC
(London) PLC v. The Blacksands Pacific Group, Inc. (Notice of Removal, No.
15 Cv. 70 (LAK), EFC No. 1). Based on the loan documents, Judge Kaplan
granted ICBC London's motion for summary judgment against Blacksands.
(Mem. Op., No. 15 Cv. 70 (LAK), EFC No. 38).
ICBC London then served Blacksands with extremely broad post­
judgment discovery requests. Blacksands counsel, Latham & Watkins LLP
("Latham") interposed objections to those demands and filed a brief in
support of those objections. (See Def. Interrog., No. 15 Cv. 70 (LAK), EFC No.
84 Ex. 2); (Mem.; Def.’s Dec!., No. 15 Cv. 70 (LAK), EFC Nos. 85, 86). The
Court conducting no analysis regarding the permissible scope of post­
judgment discovery of the actual breadth of plaintiffs demands, instead in

6

‘t

conclusionary fashion declared that the objections were "baseless" and that
Blacksands "shall comply fully." (See Order, No. 15 Cv. 70 (LAK), EFC No.
87).

Subsequently, ICBC London moved for contempt and coercive
sanctions against Blacksands. (Order to Show Cause; Pl.’s Deck; Mem., No.
15 Cv. 70 (LAK), EFC Nos. 101, 102-103). On October 24, 2016, Judge Kaplan
granted ICBC London's motion holding Blacksands in contempt and
imposing coercive sanctions. (Order, No. 15 Cv. 70 (LAK), EFC No. 108). Over
the course of the next two weeks, on November 4 and November 10, 2016, Mr.
Brennerman on behalf of Blacksands provided detailed discovery responses to
ICBC London, including approximately 400 pages of documents, in an effort'
to comply with ICBC London's discovery requests. (See Pl.’s Deck, No. 15 Cv.
70 (LAK), EFC. No. 123, TfTf 9, 11-12). Mr. Brennerman also made continued'
efforts without support from other shareholders and partners to settle the
matter with ICBC London, including meeting with ICBC London executives
in London and providing them with even more information about Blacksands
and its pending transaction, which were pertinent to Blacksands settlement
efforts. (See Pl.’s Deck, No. 15 Cv. 70 (LAK), EFC No. 123,Hlf 45, 9, 11-12).
On December 7, 2016, ICBC London moved for civil contempt against
Mr. Brennerman personally, even though he was not a named defendant in
the matter and was not personally named in any discovery orders. (Order;
Mem.; Pl.’s Deck, No. 15 Cv. 70 (LAK), EFC Nos. 121-23). A contempt hearing

7

was scheduled for December 13, 2016, less than a week later. (Corrected
Order, No. 15 Cv. 70 (LAK), EFC No. 125).
Mr. Brennerman, however, did not have counsel. In fact, Latham
repeatedly and consistently communicated to the Court, and to Mr.
Brennerman that they did not represent Mr. Brennerman personally. (See
e.g. Letter, No. 15 Cv. 70 (LAK), EFC No. 124). Although Mr. Brennerman
was out of the country at the time he learned of the pending contempt
hearing against him, he immediately sought to retain counsel to represent
him in the contempt proceeding and wrote the Court requesting a reasonable
adjournment because he was currently outside the United States and needed
more time to retain counsel. (Email; Letter, No. 15 Cv. 70 (LAK), EFC Nos.
127-28) (Judge Kaplan was previously a partner at Paul Weiss LLP which
represented Mr. Brennerman at the time thus the law firm could not appear
before Judge Kaplan hence why Mr. Brennerman had to retain another law
firm to represent him for the contempt proceedings). Judge Kaplan denied
Mr. Brennerman's request on December 12, 2016 (Order, No. 15 Cv. 70
(LAK), EFC No. 134), and found Mr. Brennerman personally in contempt on
December 13, 2016. (Orders, No. 15 Cv. 70 (LAK), EFC Nos. 139-40). While
Mr. Brennerman had provided a substantial document production in
November, after Blacksands was found in contempt, the Court made no
mention of it and appeared not to have reviewed or considered that

8

■f

production in its determination that Mr. Brennerman was himself in
contempt. (Orders, 15 Cv. 70 (LAK), EFC. Nos. 139-40).
On December 13, 2016 when Judge Kaplan held Mr. Brennerman
personally in contempt, he [Judge Kaplan] ignored the law from the Second
Circuit U.S. Court of Appeals in OSRecovery, where the Appeals Court stated
directly to Judge Kaplan in relevant parts: ("[T]he District Court abused its
discretion by issuing a contempt order to a non-party for failing to respond to
discovery request propounded to him as a party without providing sufficient
legal authority or explanation for treating him as a party solely for the
purpose of discovery)) and held Mr. Brennerman in contempt (even though
there were no court order[s] directed at him personally. No subpoena or
motion -to -comp el were directed at him). OSRecovery, Inc., v. One Groupe
Inti, Inc., 462 F.3d 87, 90 (2d Cir. 2006).
Judge Kaplan also ignored the federal rule to conduct extra-judicial
research into Mr. Brennerman by Googling him. (See Bail Hr.’g Tr., United
States v. Brennerman, No. 17 Cr. 155 (LAK), EFC No. 12 Ex. 1 at 28). Then
following the erroneous contempt propounded against Mr. Brennerman,
Judge Kaplan referred him to the Manhattan federal prosecutors (United
States Attorney Office for the Southern District of New York "USAO, SDNY")
and persuaded the prosecutors to arrest Mr. Brennerman and prosecute him
criminally. (See Trial Tr., No. 17 Cr. 155 (LAK), EFC No. 12 Ex. 2).

9

■ T

The Criminal Referral, the Petition and Ex Parte
Conference between Judge Kaplan and the Government
In late 2016 or early 2017, Judge Kaplan referred Blacksands and Mr.
Brennerman personally to the United States Attorney's Office for criminal
prosecution.
Thereafter, on March 3, 2017, the government filed a Petition seeking
to initiate criminal contempt proceedings against Blacksands and Mr.
Brennerman personally, including an Order to Show Cause for them to
appear in Court to answer the charges. On March 7, 2017, Judge Kaplan
summoned AUSAs Robert Benjamin Sobelman and Nicolas Tyler LandsmanRoos to his robing room to advise that an arrest warrant should be issued fol
Mr. Brennerman. (See Trial Tr., No. 17 Cr. 155 (LAK), EFC No. 12 Ex. 2).
The prosecution, consistent with Fed. R. Grim. P. 42, had prepared an Order
to Show Cause that would have directed Blacksands and Mr. Brennerman tcP
appear before the Court on a date in the future. The Court made clear,
however that it did not agree with the government's approach and advised
the prosecutors that the Court should issue an arrest warrant instead as to
Mr. Brennerman, stating his assumption that "the United States can't find
him." The prosecutors repeatedly expressed their view that execution of an
arrest warrant was not necessary under the circumstances. (See Trial Tr., No.
17 Cr. 155 (LAK), EFC No. 12 Ex. 2). The prosecutors advised, first, that Mr.
Brennerman had actually called them on Friday, March 3, 2017, the same
day that the Petition was filed to talk to them about that Petition. Id. The

10

prosecutors informed Mr. Brennerman that he could not speak with him, and
Mr. Brennerman then provided his phone number so that "there may be a
way for the government to be in touch with him via that telephone number."
The prosecutors then proposed that the Order to Show Cause previously
prepared and filed by the government, could be entered to require Mr.
Brennerman to attend the conference and "should he not appear, [] a
summons or arrest warrant be issued to secure his appearance." Id.
The Court continued to press the issue of an arrest warrant, asking
'[w]hy shouldn't I, given the history in this case issue a warrant?" (See Trial
Tr., No. 17 Cr. 155 (LAK), EFC No. 12 Ex. 2 At 5). The Prosecutors responded
with a number of reasons, stating:
Mr. Brennerman did try to contact the government on Friday, and we
don't know that he has absconded or seeks to abscond. He's already
knowledgeable about the petition. His email address is included on the
ECF notification that went out when the petition was publicly filed.
He appears to have the resources to have fled had he intended to, and
the government thinks it's prudent to provide him an opportunity to
appear at the conference voluntarily.
Id. The prosecution went on to say that, even if the Court issued an arrest
warrant, "the government would likely provide Mr. Brennerman an
opportunity to surrender rather than dispatching law enforcement to
apprehend him without providing that opportunity." Id.
The Court pressed on, stating "I'm inclined to issue an arrest warrant"
and pushed back against the prospect that Mr. Brennerman should be
allowed to surrender: "Now, if the government is going to give him an

11

’ ts?

opportunity to surrender; there's a substantial question as to whether I'm
wasting my time because I think the odds are not unreasonable that he will
abscond". Id. at 6.
Eventually the prosecutors deferred to the Court and confirmed that if
an arrest warrant was issued, they would discuss in their office how best to
proceed. Id. at 7. Thus, as of March 7, 2017, when the government entered
the robing room, there was no pending investigation of fraud as to Mr.
Brennerman with the prosecutors in the Southern District of New York, and
the government was prepared to proceed with a contempt proceeding by
Order to Show Cause and had no concern that Mr. Brennerman would seek to
abscond.
Thus pursuant to the arrest warrant prepared and signed by Judge
Kaplan, Mr. Brennerman was arrested on April 19, 2017 at his home in Las
Vegas. As of the date of the arrest warrant and because the Court had
declined to sign the order to show cause presented by the government, there
was no actual contempt charge pending against Mr. Brennerman. The Court
omitted Mr. Brennerman from the signed Order to Show Cause but then
failed to otherwise rule or grant the government's Petition as it related to
Mr. Brennerman. There was, therefore, no proper basis for the arrest
warrant. The Court's decision to alter the warrant to reference the Petition
was inadequate to support the warrant. (The arrest warrant included an
option for a Probation Violation Petition; those instruments, unlike a Petition

12

in a contempt proceeding, actually do charge an offense). (See Arrest
Warrant, No. 17 Cr. 155 (LAK), EFC No. 12 Ex. 3).
Mr. Brennerman's arrest on April 19, 2017 (when government seized
his electronic devices and documents (which was adduced as evidence (emails between Mr. Brennerman (on behalf of Blacksands) and Madgett
(ICBC London) at trial of the contempt and fraud case (where the
government actually never obtained or reviewed any pertinent ICBC
transaction files from ICBC (London) pic) was in violation of both Mr.
Brennerman's Fourth and Fifth Amendment rights.
The Indictment and Order to Show Cause
On May 31, 2017, weeks after Mr. Brennerman was released on bail in
the criminal contempt of court case, he was re-arrested by the U.S.
Attorney's Office pursuant to an indictment alleging fraud in connection with
the transaction that was at issue in the underlying civil action, No. 15 Cv. 70
(LAK) between ICBC (London) PLC and The Blacksands Pacific Group, Inc
(even though the civil action had been ongoing for two and half years at that
point) Mr. Brennerman was charged with Conspiracy to commit bank and
wire fraud, bank fraud and wire fraud. Id. The case was assigned to Hon.
Richard J. Sullivan, under the caption, United States v. Brennerman, No. 17
Cr. 337 (RJS).
In August 2017, because Judge Kaplan had failed to sign the Order to
Show Cause as it related to Mr. Brennerman in the criminal contempt of

13

court case at No. 17 Cr. 155 (LAK) (even though Mr. Brennerman had been
arrested at the behest of Judge Kaplan) he had revoked the bail granted to
Mr. Brennerman even without any violations of the bail conditions. The
government realizing their error filed a new two count Order to Show Cause
Petition formally charging Mr. Brennerman in the criminal contempt of court
case. (See Order to Show Cause, Brennerman No. 17 Cr. 155, EFC No. 59).
The District Court's decision
In August 2017, prior to trial for the criminal contempt of court case,
Mr. Brennerman sought to obtain the complete ICBC records (including the
underwriting file and negotiations between agents of Blacksands and ICBC
London) to demonstrate his innocence and to present a complete defense.

■:*

However Mr. Brennerman's request to the Manhattan federal prosecutors
was denied. The [Manhattan federal prosecutors] refused to obtain or review
the complete ICBC records including the underwriting files, arguing that
they were not obligated to collect any additional evidence from ICBC London
beyond what the bank had selectively provided to them. Judge Kaplan also
denied Mr. Brennerman's request seeking to compel the complete ICBC
record. See 17-cr-155 (LAK), Dkt. No. 76
The Trial and Post-Trial Proceedings
During trial, District Court (Judge Kaplan) rejected defendant
argument regarding presentment of the civil contempt order to the jury,
ruling that the government could present evidence that both the company

14

■ ,-j

and Mr. Brennerman had been found in contempt of Court (See Trial Tr., No.
17 Cr. 155 (LAK), at 3-7). A juror named Gordon later told the media - Law
360 that the civil contempt orders swayed the jury to find Mr. Brennerman
guilty of criminal contempt (See Law 360 Article, No. 17 Cr. 337 (RJS), EFC
No. 236, Ex. 3 at 17).
Mr. Brennerman was deprived of the very evidence he required to
defend himself. Although such evidence (agents of ICBC London requesting
settlement discussion) plainly was relevant to the issue of Mr. Brennerman's
willfulness in failing to comply with the Court's discovery orders, the District
Court refused repeatedly to allow counsel to elicit such evidence on the issue
and so the record was devoid of the precise evidence that would have
demonstrated the defendant's lack of intent (See Trial Tr., No. 17 Cr. 155
(LAK), at 269-277; 236-249).
The District Court went a step further and proposed an instruction to
the jury that settlement discussions in a civil case did not excuse a
defendant's failure to comply with the court's discovery order absent an order
suspending or modifying the requirement to comply (See Trial Tr., No. 17 Cr.
155 (LAK), at 509-510). Defense counsel objected arguing that even if that
were technically true, if the parties specifically engaged in settlement
discussion with the understanding that discovery would not be pursued, such
evidence was certainly relevant to defendant's intent in not complying with
the Court's order and should have been considered by the jury. The District

15

Court (Judge Kaplan) overruled counsel's objection and instructed the jury as
indicated. (See Trial Tr., No. 17 Cr. 155 (LAK), at 538-544).
The trial commenced on September 6, 2017 and concluded on
September 12, 2017 with the jury returning a guilty verdict on both counts of
criminal contempt.
The Court of Appeal decision
The Second Circuit found that the District Court did not err in its
failure to compel ICBC's production of its entire file because Brennerman did
not comply with the rules governing subpoenas under Rule 17(d) of the
Federal Rules of Criminal Procedure when he served ICBC's New York-based’
attorney, not the ICBC's London branch. United States v. Brennerman, No.
18 1033(L), WL 3053867 at *1 (2d Cir. June 9, 2020). The Court further
concluded that, "the prosecution was under no obligation to make efforts to t:
obtain information beyond what it previously collected and turned over to
Brennerman." Id.
As to the evidence concerning settlement discussions, the Second
Circuit found that the district court had allowed Brennerman "to introduce
evidence concerning settlement discussions on the condition that he establish
his knowledge of the substance of the exhibits and their relationship to the
relevant time period..." and that "through cross-examination, Brennerman
was able to introduce evidence about the parties' settlement discussions. Id.
at *2. The Second Circuit found that "the district court did not abuse its

16

discretion in admitting some but not all of this evidence, and Brennerman
had failed to point to any specific evidence that would have helped his case
had it been submitted." Id.
In regard to the admission of the civil contempt order against
Brennerman, the Second Circuit found that "the district court correctly
determined, the civil contempt orders were relevant to Brennerman's
willfulness. To minimize any potential prejudicial effect, the district court
redacted portions of the orders and instructed the jury on the limited
purposes for which it could consider the civil contempt orders in the context
of a trial about criminal contempt." Id.
The panel denied a motion for rehearing by order dated September 9, ■
2020. (See Order, No. 18 1033, EFC No 318).

17

s- .

IX.

REASON FOR GRANTING CERTIORARI
Argument

This Petition presents an opportunity for the Court to clarify (a)
whether the abuse of discretion standard imposed by United States Court of
Appeals for the Second Circuit is Constitutionally permissible - where the
Circuit Court refused to correct errors which substantively abridges and
abrogates the rights of criminal defendant which are protected by the United
States Constitution and (b) where trial Court deliberately deprived the
criminal defendant of his Constitutional rights thus violating his Fifth and
Sixth Amendment rights of the U.S. Constitution.

■,.1-

is

This case will clarify the obligations of lower Courts as a matter of w
public interest to emphasize conformity and uniformity with the law and
Constitution among lower Courts in ensuring adherence with their
Constitutional obligations and avoid attack on the civil rights and liberty of
criminal defendants because of their race, sex or religion.
I.
The Second Circuit erred in affirming the District
Court's 1) Admission of the civil contempt order against
Petitioner; .2) Failure to compel production of certain
EXCULPATORY MATERIALS; AND 3) PRECLUSION OF THE ADMISSION OF
EVIDENCE PERTAINING TO SETTLEMENT NEGOTIATIONS, BECAUSE THE
ISSUES RAISED ARE QUESTION OF EXCEPTIONAL IMPORTANCE. THIS CASE
RAISE ISSUES OF IMPORTANT SYSTEMIC CONSEQUENCES FOR THE
DEVELOPMENT OF THE LAW AND ADMINISTRATION OF JUSTICE

18

'i

A.
Admission of the civil contempt order violated
Petitioner's Constitutional rights where the Court failed
TO AFFORD HIM THE EQUAL PROTECTION GUARANTEE AND THE
PROSECUTION VIOLATED HIS RIGHT TO DUE PROCESS OF LAW

In OSRecovery, the Second Circuit U.S. Court of Appeals vacated civil
contempt adjudicated by Judge Lewis A. Kaplan ("Judge Kaplan") against a
party who was not part of the civil case. OSRecovery, Inc., v. One Groupe
Int'l, Inc., 462 F.3d 87, 90 (2d Cir. 2006). In vacating the contempt order the
Court of Appeals stated directly to Judge Kaplan that the Court abused its
discretion by holding a non-party in civil contempt propounded against him
solely for the purpose of discovery without providing any legal authority or
clear explanation for doing so. In 2016, Judge Kaplan ignored the law and
held Petitioner, a non-party who was not involved in the underlying case,
ICBC (London) PLC v. The Blacksands Pacific Group, Inc., in contempt
without providing any legal authority or clear explanation. (See Order; Mem.
& Order, No. 15 Cv. 70 EFC. Nos. 139-40). This time, Judge Kaplan went a
step further and referred Petitioner to Manhattan prosecutors to be
prosecuted criminally. The prosecution undertook no diligence or
investigation prior to initiating criminal contempt charges against Petitioner.
During trial of the criminal contempt of court case, Judge Kaplan
permitted the prosecution to present to the jury the civil contempt order
erroneously adjudged against Petitioner which was in tension with the law.
(See Trial Tr., No. 17 Cr. 155 (LAK), at 3-7). Such presentment significantly
prejudiced Petitioner, because the judge allowed the presentment of an

19

vf

erroneously adjudged civil contempt order as evidence to the jury (that
concluded that Petitioner must be guilty of criminal contempt), without
allowing Petitioner to present the background to the adjudication of the civil
contempt order. (See Law 360 Article, No. 17 Cr. 337 (RJS), EFC No. 236, Ex.
3 at 17).
The question of whether the civil contempt order was properly
admitted against Petitioner goes beyond a simple analysis of Rules 403 and
404(b) of the Federal Rules of Evidence. Petitioner was a non-party in the
civil lawsuit at the time of the order. Because the order was erroneously
adjudged against him, its erroneous admission had more serious legal
implication above and beyond an abuse of discretion analysis.
The Second Circuit had previously held that "because the power of a
district court to impose contempt liability is carefully limited, our review of a "
contempt order for abuse of discretion is more rigorous than would be the
case in other situations in which abuse-of-discretion review is conducted."
Hester Indus., Inc. v. Tyson Foods, Inc., 160 F.3d 911, 916 (2d Cir. 1998).
"Moreover, we think it is fundamentally unfair to hold [a non-party] in
contempt as if he were a party without legal support for treating him, a nonparty, as a party but only for the purpose of discovery." OSRecovery, Inc., 462
F.3d at 90. In OSRecovery, the Second Circuit court had found that the
district court abused its discretion by holding a person "in contempt as a
party without sufficient explanation or citation to legal authority supporting

20

the basis upon which the court relied in treating [him] as a party—for
discovery purposes only—despite the fact that [he] was not actually a party."
Id. at 93.
Here Judge Lewis A. Kaplan (the same district judge whose contempt
order the Second Circuit court found inappropriate in OSRecovery) held
Petitioner in civil contempt as a non-party and failed to provide any legal
authority or present any particular theory for treating him as a party solely
for the purpose of discovery. (See Order; Mem. & Order, No. 15 Cv. 70 (LAK)
EFC. Nos. 139-40). No court orders, subpoenas, or motion to compel were ever
directed at Petitioner personally nor was he present during the civil case's

K‘-

various proceedings.
The erroneous admission of the civil contempt order was more than an
evidentiary error. It violated the Second Circuit court's instructions

v-

concerning contempt order against non-parties. On appeal, the Second

r.

Circuit affirmed district court's rulings creating disparity with the Second
Circuit's treatment and review of such order's and deprived Petitioner of his
Constitutional right to an equal protection guarantee.
B.

Failure to compel production of certain

EXCULPATORY MATERIALS VIOLATED PETITIONER'S SIXTH

Amendment right, where he was deprived of the evidence
HE REQUIRED TO PRESENT A COMPLETE DEFENSE

Petitioner's central argument concerning the ICBC production
requests is that there existed exculpatory evidence materials that were not
provided to him and could not otherwise be compelled due to Rule 17

21

limitations regarding foreign entities. (See Trial Tr., No. 17 Cr. 337 (RJS), at
551-554). The Second Circuit did not address Petitioner's argument that, if
the government claimed that it had produced all documents in its possession
but the omission of the entire file was glaringly obvious, then it follows that
the government was aware that relevant information existed and was
therefore, withholding material that it could (and should) have obtained, in
violation of Brady. See Brady v. Maryland, 373 U.S. 83 (1963).
Because Petitioner was effectively barred from obtaining relevant
evidence, such as the entirety of his communications with ICBC
representatives, due to subpoena constraints, he was denied the opportunity^
to put forth a complete defense.
Because no meaningful inquiry was conducted, either at the district
court or before the Second Circuit, concerning the discrepancies between the
government's representations that the production was complete and the
f

obviously incomplete materials produced, the issue of whether Brady
obligations were flouted by the government remains open. See Brady v.
Maryland, 373 U.S. 83 (1963). The sanctity of Brady obligations cannot be
interpreted as anything less than a question of exceptional importance
warranting further reconsideration on this point. See Id.

22

1

C.

Preclusion of the admission of evidence pertaining to

SETTLEMENT NEGOTIATIONS (DUE TO FAILURE TO PERMIT FULL
SETTLEMENT NEGOTIATION EVIDENCE) VIOLATED PETITIONER'S

Constitutional right where he was deprived of evidence he
REQUIRED TO PRESENT A COMPLETE DEFENSE

Without the entire ICBC file, Petitioner was precluded from presenting
evidence regarding settlement negotiations between Blacksands and ICBC.
Petitioner avers that evidence of these negotiations would have convinced the
jury that he had not willfully disobeyed any court orders.
Although Petitioner was permitted certain lines of questioning
concerning settlement negotiations, the admitted evidence was woefully
inadequate to set forth his complete defense. Petitioner was attempting to u
elicit evidence of settlement discussions with agents of ICBC that, he argued,
would have demonstrated that he was not willfully disobeying the district
court's discovery orders but was instead prioritizing settlement with ICBC
over Blacksands’ discovery obligations. This evidence was not permitted,
could not be elicited through cross-examination of witnesses, and was not
part of the jury instruction. (See Trial Tr., No. 17 Cr. 155 (LAK), at 236-277).
Although such evidence was plainly relevant to the issue of Petitioner's
willfulness in failing to comply with the court's discovery orders, the record
was devoid of the precise evidence that would have demonstrated the
Petitioner's lack and intent. The district court exacerbated the harm by
instructing the jury that settlement discussions in a civil case did not excuse
a defendant's failure to comply with the court's discovery order absent an

23

order suspending or modifying the requirements to comply. {See Trial Tr., No.
17 Cr. at 509-510; 538-544).
The limitation on evidence of settlement negotiations was not merely
an evidentiary issues, but rather, a constitutional one which violated
Petitioner's right to present a defense. The violation was compounded by the
fact that the district court essentially eviscerated the element of intent in
determining whether Petitioner was guilty of criminal contempt. The Second
Circuit's decision failed to address the manner in which the district court's
evidentiary rulings precluded Petitioner's right to present a complete
defense.
The danger of the Second Circuit rule is amply demonstrated by the
consequences of erosion of public trust in the United States Justice system
and other institutions. As the Fourth Circuit recently promulgated "what
gives people confidence in our justice system is not that we merely get things
right rather, it is that we five in a system, that upholds the rule of law even
when it is inconvenient to do so". The lower Court - United States Court of
Appeals for the Second Circuit and United States District Court for the
Southern District of New York veered from the rule of law in this case.
Interests of comity - in addition to fairness and substantial justice as
embodied in the Due Process Clause and the U.S. Constitution - warrant
reversal of the Second Circuit decision.

24

r

X,

CONCLUSION

The petition for certiorari should be granted.
Dated:

White Deer, Pennsylvania
December 28, 2020
Respectfully submitted,
/s/ Raheem J. Brennerman
Raheem Jefferson Brennerman
Reg. No. 54001-048
FCI Allenwood Low
White Deer, Pa. 17887-1000
Petitioner Pro Se

25

♦

«/

XI.

APPENDIX TABLE OF CONTENTS

Order of the United States Court of
Appeals for the Second Circuit in
United States u. The Blacksands Pacific Group, Inc.,
et. al (Brennerman) No. 18 1033 Cr. EFC No. 286
(Affirming Conviction and Sentence)..........................

APPENDIX A (la)

Judgement of Conviction of the United States
District Court for the Southern District of N.Y. in
United States v. The Blacksands Pacific Group, Inc.,
et. al (Brennerman), No. 17 Cr. 155 (LAK),
EFC No. 145..................................................................

APPENDIX B (7a)

Motion for Rehearing en banc at the
- United States Court of Appeals for the
Second Circuit, in United States v.
The Blacksands Pacific Group, Inc., et. al
(Brennerman), No. 18 1033 Cr., EFC No. 314

APPENDIX C (14a)

Order of the United States Court of
Appeals for the Second Circuit denying
motion for Rehearing en banc in United States
v. The Blacksands Pacific Group, Inc., et. al
(Brennerman), No. 18 1033 Cr., EFC No. 318 ...

APPENDIX D (24a)

Motion and Order of the United States
District Court for the Southern District of
N.Y. in ICBC (London) PLC v. The Blacksands
Pacific Group, Inc., No. 15 Cv. 70 (LAK)
(EFC Nos. 139-140).............................................

APPENDIX E (26a)

Opinion and Decision of the United States Court
of Appeals for the Second Circuit in
OSRecovery, Inc., v. One Groupe Int'l, Inc.,
462 F.3d 87, 90 (2d Cir. 2006)................................

APPENDIX F (38a)

Petition, Opinion and Order of the United States
District Court for the Southern District of N.Y.
in United States v. The Blacksands Pacific Group, Inc.,
et. al. (Brennerman), No. 17 Cr. 155
(EFC No. 59, 76)...............................................................

APPENDIX G (45a)

26

Transcript of Proceedings and Oral Ruling
United States District Court for the Southern District of
N.Y. in United States v. The Blacksands Pacific Group, Inc.,
et. al. (Brennerman), No. 17 Cr. 155 (LAK)
(Trial Tr. 3-7; 269-277; 236-249; 509-510; 538-544)
APPENDIX H (5 la)
Exhibit and submission in the United States
District Court for the Southern District of
N.Y. in United States v. Brennerman, No. 17 Cr. 337
(EFC No. 236, Ex. 3).....................................................

APPENDIX I (89a)

Transcript of Proceedings and Oral Ruling
United States District Court for the Southern District of N.Y.
United States u. Brennerman, No. 17 Cr. 337
(Trial Tr. 551-554)
APPENDIX J (92a)

27

i

CERTIFICATE OF COMPLIANCE
No. 20-

RAHEEM JEFFERSON BRENNERMAN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent,
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 6,479 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 28, 2020
/s/ Raheem J. Brennerman
RAHEEM JEFFERSON BRENNERMAN
Petitioner

